<html>
<title> - IMPROVING EPA'S SCIENTIFIC ADVISORY PROCESSES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                      IMPROVING EPA'S SCIENTIFIC 

                           ADVISORY PROCESSES
=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                       WEDNESDAY, MARCH 20, 2013

                               __________

                           Serial No. 113-15

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
80-348                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
DANA ROHRABACHER, California         EDDIE BERNICE JOHNSON, Texas
RALPH M. HALL, Texas                 ZOE LOFGREN, California
F. JAMES SENSENBRENNER, JR.,         DANIEL LIPINSKI, Illinois
    Wisconsin                        DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             FREDERICA S. WILSON, Florida
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
PAUL C. BROUN, Georgia               DAN MAFFEI, New York
STEVEN M. PALAZZO, Mississippi       ALAN GRAYSON, Florida
MO BROOKS, Alabama                   JOSEPH KENNEDY III, Massachusetts
RANDY HULTGREN, Illinois             SCOTT PETERS, California
LARRY BUCSHON, Indiana               DEREK KILMER, Washington
STEVE STOCKMAN, Texas                AMI BERA, California
BILL POSEY, Florida                  ELIZABETH ESTY, Connecticut
CYNTHIA LUMMIS, Wyoming              MARC VEASEY, Texas
DAVID SCHWEIKERT, Arizona            JULIA BROWNLEY, California
THOMAS MASSIE, Kentucky              MARK TAKANO, California
KEVIN CRAMER, North Dakota           VACANCY
JIM BRIDENSTINE, Oklahoma
RANDY WEBER, Texas
CHRIS STEWART, Utah
VACANCY
                                 ------                                

                      Subcommittee on Environment

                    HON. CHRIS STEWART, Utah, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        JULIA BROWNLEY, California
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              MARC VEASEY, Texas
PAUL C. BROUN, Georgia               MARK TAKANO, California
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
                                     EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas


                            C O N T E N T S

                       Wednesday, March 20, 2013

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Chris Stewart, Chairman, Subcommittee 
  on Environment, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Environment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

                               Witnesses:

Dr. Michael Honeycutt, Chief Toxicologist, Texas Commission on 
  Environmental Quality
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Roger McClellan, Advisor, Toxicology and Human Health Risk 
  Analysis
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Francesca Grifo, Senior Scientist and Science Policy Fellow, 
  Union of Concerned Scientists
    Oral Statement...............................................    36
    Written Statement............................................    38

Discussion.......................................................    52

             Appendix I: Answers to Post-Hearing Questions

Dr. Michael Honeycutt, Chief Toxicologist, Texas Commission on 
  Environmental Quality..........................................    70

Dr. Roger McClellan, Advisor, Toxicology and Human Health Risk 
  Analysis.......................................................    75

Dr. Francesca Grifo, Senior Scientist and Science Policy Fellow, 
  Union of Concerned Scientists..................................    78

            Appendix II: Additional Material for the Record

Letters sent to the Committee by various groups and individuals 
  expressing their concerns about the provisions in the bill 
  submitted by Representative Suzanne Bonamici...................    80

Congressional Research Service Memorandum on EPA Grants to 
  Members of Selected EPA Advisory Committees submitted by 
  Representative Dana Rohrabacher................................    82

Thank you letter and Questions sent to Dr. Grifo from the 
  Subcommittee on Investigations and Oversight hearing on October 
  13, 2011, for the hearing titled, ``The Endangered Species Act: 
  Reviewing the Nexus of Science and Policy,'' submitted by 
  Representative Paul Bourn......................................    92

George T. Wolff, The Changing NAAQS Review Process, submitted by 
  Dr. Michael Honeycutt..........................................    96

EPA Evalualion Report submitted by Dr. Michael Honeycutt.........   108

GSA Federal Advisory Committee Membership Balance Plan submitted 
  by Dr. Michael Honeycutt.......................................   130


             IMPROVING EPA'S SCIENTIFIC ADVISORY PROCESSES

                              ----------                              


                       WEDNESDAY, MARCH 20, 2013

                  House of Representatives,
                                Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Chris 
Stewart [Chairman of the Subcommittee] presiding.]


[GRAPHIC] [TIFF OMITTED] 80553.001

[GRAPHIC] [TIFF OMITTED] 80553.002

[GRAPHIC] [TIFF OMITTED] 80553.003

[GRAPHIC] [TIFF OMITTED] 80553.004

[GRAPHIC] [TIFF OMITTED] 80553.005

[GRAPHIC] [TIFF OMITTED] 80553.006

[GRAPHIC] [TIFF OMITTED] 80553.007

    Chairman Stewart. Good morning, everyone. The Subcommittee 
on Environment will come to order.
    Welcome to today's hearing entitled ``Improving EPA's 
Scientific Advisory Processes.'' In front of you are packets 
containing the written testimony, biographies, and truth-in-
testimony disclosures of today's witnesses. I would now like to 
recognize myself for five minutes for an opening statement.
    Welcome once again to this morning's hearing on the 
Environmental Subcommittee entitled ``EPA's Scientific Advisory 
Processes.'' Former President Ronald Reagan famously said that 
``the government's view of the economy should be summed up in a 
few short phrases: if it moves, tax it. If it keeps moving, 
regulate it. And if it stops moving, subsidize it.'' The EPA's 
agency needs no introduction as a primary executor of the 
regulatory part of this formula.
    Whether it is fostering air-quality regulations that could 
shut down large swaths of the West, undertaking thinly veiled 
attacks on the safety of hydraulic fracturing, or pursuing job-
killing climate regulations that will have no impact on the 
climate, EPA's reputation as a lightning rod for controversy is 
well known here in Washington and throughout the country.
    Less well known and understood, however, is the underlying 
regulatory science and scientific advisory mechanisms that the 
Agency uses to justify its aggressive regulatory approach. The 
purpose of today's hearing is to examine these processes with a 
particular focus on draft legislation to reform the EPA's 
Science Advisory Board, or SAB. Established by Congress in 
1978, the SAB is intended to provide meaningful, balanced, and 
independent reviews of the science conducted and used by the 
Agency. Unfortunately, this vision often goes unrealized in 
actual practice. I would like to note just a few examples here.
    Despite a statutory requirement that EPA's advisory panels 
be ``fairly balanced in terms of point of view represented,'' 
the Agency routinely excludes private sector expertise while 
stacking these panels with individuals likely to support EPA's 
perspective. It is no surprise that EPA finalized a regulation 
on power plants in late 2011 that even the Agency admitted 
would cost $11 billion a year. EPA had prevented virtually all 
industry scientists from participating in the review of the 
underlying science.
    Similarly, this Committee received testimony stating that, 
in the case of an SAB panel asked to examine EPA's hydraulic 
fracking research, all 22 members had ``no experience in 
hydraulic fracturing and no understanding of current industry 
practices,'' this in an industry whose technology is rapidly 
changing with significant improvements incorporated into their 
processes nearly every day. Even worse, the Agency appears 
ready to double-down on this anti-business attitude I summarily 
dismissing on the ground private sector experts in the next 
fracking science review.
    Meanwhile, there are unsettling Agency trends about how EPA 
selects its supposedly independent advisers. According to the 
Congressional Research Service, almost 60 percent of the 
members of EPA's chartered SAB and Clean Air Scientific 
Advisory Committee, also known as CASAC, have directly received 
grants from the Agency since 2000. These advisors served as 
principal and co-investigators in EPA grant totaling roughly 
$140 million.
    EPA frequently chooses panelists whose research is directly 
or indirectly under review. During a recent review of EPA air-
quality science, 21 of the 25 panelists had their work cited by 
the EPA and the Chair of the panel was footnoted more than 80 
times.
    Many of the panelists have clearly taken sides are made 
public pronouncements on issues they advise about. For example, 
a lead reviewer of EPA's hydraulic fracking study published in 
anti-fracking article entitled ``Regulate, Baby, Regulate.''
    This hardly sounds like a recipe for a critical or balanced 
examination. Yet EPA routinely touts the work of its 
independent science advisors in promoting and defending its 
controversial regulatory agenda. The record is clear: the SAB 
is ripe for improvement.
    Accordingly, we will discuss draft legislation that would 
address these concerns--the EPA Science Advisory Board Perform 
Act of 2013. This language is similar to the bill introduced in 
the 112 Congress by then-Chairman Ralph Hall. The draft bill 
would reform the SAB and its subpanels by expanding 
transparency requirements, improving the process for selecting 
expert advisers, strengthening public participation, and 
limiting non-scientific policy advice.
    The concepts contained in this proposed legislation did not 
arise out of thin air; rather, they are principles that came 
from the EPA's own Peer Review Handbook, the National 
Academies' Conflict-of-Interest Policy, existing Federal ethics 
requirements on Special Government Employees, and 
recommendations from past Science Committee testimony and other 
outside groups.
    Let me conclude by making this important point: if the EPA 
scientific process is viewed as being biased less or than 
willing to consider every point of view, their credibility 
suffers. This serves neither the EPA, American businesses, nor 
American citizens. Independent, balanced, and transparent 
review of EPA science offers a critical check on the Agency 
that frequently views the world through its regulatory lens. 
Commonsense reforms that improve scientific advice should make 
EPA's regulatory end-products more credible, and I look forward 
to our witnesses' unique perspective on these issues.
    I now recognize the Ranking Member, the gentlewoman from 
Oregon, Ms. Bonamici, for an opening statement.
    [The prepared statement of Mr. Stewart follows:]

       Prepared Statement of Subcommittee Chairman Chris Stewart

    Welcome to this morning's hearing of the Environment Subcommittee 
entitled Improving EPA's Scientific Advisory Processes.
    Former President Ronald Reagan famously said that ``government's 
view of the economy could be summed up in a few short phrases: If it 
moves, tax it. If it keeps moving, regulate it. And if it stops moving, 
subsidize it.'' The Environmental Protection Agency needs no 
introduction as the primary executor of the regulatory part of this 
formula.
    Whether it is promulgating air quality regulations that could shut 
down large swaths of the West, undertaking thinly veiled attacks on the 
safety of hydraulic fracturing, or pursuing job-killing climate 
regulations that will have no impact on the climate, EPA's reputation 
as a lightning rod for controversy is well known here in Washington and 
throughout the country.
    Less well known and understood, however, is the underlying 
regulatory science and scientific advisory mechanisms that the Agency 
uses to justify its aggressive regulatory approach. The purpose of 
today's hearing is to examine those processes, with a particular focus 
on draft legislation to reform the EPA's Science Advisory Board, or 
SAB.
    Established by Congress in 1978, the SAB is intended to provide 
meaningful, balanced, and independent reviews of the science conducted 
and used by the Agency. Unfortunately, this vision often goes 
unrealized in practice. I would like to note just a few examples:

    <bullet>  Despite a statutory requirement that EPA's advisory 
panels be ``fairly balanced in terms of point of view represented'' the 
Agency routinely excludes private sector expertise while stacking these 
panels with individuals likely to support EPA's perspective. It is no 
surprise that EPA finalized a regulation on power plants in late 2011 
that even the Agency admitted would cost $11 billion a year; EPA had 
prevented virtually all industry scientists from participating in the 
review of the underlying science.

    <bullet>  Similarly, this Committee received testimony stating 
that, in the case of an SAB panel asked to examine EPA's hydraulic 
fracturing research, all 22 members had ``no experience in hydraulic 
fracturing and no understanding of current industry practices.'' This, 
in an industry whose technology is rapidly changing, with significant 
improvements incorporated into their process nearly every day. Even 
worse, the Agency appears ready to double-down on this anti-business 
attitude by summarily dismissing on-the-ground private sector experts 
in its next fracking science review.

Meanwhile, there are unsettling Agency trends about how EPA selects its 
supposedly-independent advisors:

    <bullet>  According to the Congressional Research Service, almost 
60 percent of the members of EPA's chartered SAB and the Clean Air 
Scientific Advisory Committee (also known as ``CASAC'') have directly 
received grants from the Agency since 2000. These advisors served as 
principal or co-investigators for EPA grants totaling roughly $140 
million dollars.

    <bullet>  EPA frequently chooses panelists whose research is 
directly or indirectly under review. During a recent review of EPA air 
quality science, 21 of the 25 panelists had their work cited by EPA and 
the Chair of the panel was footnoted more than 80 times.

    <bullet>  Many of the panelists have clearly taken sides or made 
public pronouncements on issues they are advising about. For example, a 
lead reviewer of EPA's hydraulic fracturing study plan published an 
anti-fracking article entitled ``Regulate, Baby, Regulate.''

    This hardly sounds like a recipe for a critical or balanced 
examination. Yet EPA routinely touts the work of its ``independent 
science advisors'' in promoting and defending its controversial 
regulatory agenda. The record is clear: the SAB is ripe for 
improvement.
    Accordingly, we will discuss draft legislation that would address 
these concerns-the EPA Science Advisory Board Reform Act of 2013. This 
language is similar to a bill introduced in the 112th Congress by then-
Chairman Ralph Hall. The draft bill would reform the SAB and its sub-
panels by expanding transparency requirements, improving the process 
for selecting expert advisors, strengthening public participation, and 
limiting non-scientific policy advice.
    The concepts contained in this proposed legislation did not arise 
out of thin air; rather, they are principles that come from EPA's own 
Peer Review Handbook, the National Academies' Conflict-Of-Interest 
Policy, existing federal ethics requirements on Special Government 
Employees, and recommendations from past Science Committee testimony 
and other outside groups.
    Let me conclude by making this important point: If the EPA 
scientific process is viewed as being biased, or less than willing to 
consider every point of view, their credibility suffers. This serves 
neither the EPA, American businesses nor American citizens.
    Independent, balanced, and transparent review of EPA science offers 
a critical check for an Agency that frequently views the world through 
its regulatory lenses. Common sense reforms that improve scientific 
advice should make EPA's regulatory end-products more credible, and I 
look forward to our witnesses unique perspectives on these issues.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    Today, the Subcommittee meets for a hearing on the quality 
of the science being used by the Environmental Protection 
Agency. When I first read the title of the hearing, ``Improving 
EPA's Scientific Advisory Process,'' I felt encouraged that 
this would be an opportunity to explore areas of bipartisan 
agreement on how to improve an important Federal agency. I am 
sure that my colleagues agree that if and when there are 
problems in a government entity for which the mission is to 
protect public health and the environment, we should be 
steadfast in identifying any problem and work together to find 
meaningful solutions.
    According to the hearing charter, the purpose of this 
hearing is to receive independent scientific advice and 
testimony on draft legislation that seeks to strengthen public 
participation, improve the process for selecting expert 
advisers, expand transparency requirements, and limit 
nonscientific policy advice within the EPA's scientific 
advisory process. All of these are good government principles 
that I support.
    Like many of my colleagues on the panel, I have heard from 
constituents who are frustrated with EPA decisions, EPA 
processes, or both. Many of those constituents tell me that 
what they need from the EPA is consistency and efficiency. On 
closer examination of the discussion draft of the bill, 
however, I noted that the provisions will not improve the 
Science Advisory Board structure or operation but instead would 
likely limit the quality of scientific advice the EPA receives. 
These provisions appear to tie the EPA's hands by denying the 
Agency access to a vast pool of our country's most expert 
scientists and researchers in environmental science and health.
    Last Congress, there was a very similar bill introduced, 
only the prior version contained a provision that would have 
resulted in many, if not most, scientists from academic 
institutions being eliminated from the EPA's Science Advisory 
Boards and being replaced by industry-funded experts. I am glad 
to see that my colleagues in the majority have eliminated that 
provision in this current draft.
    Although that provision is no longer there, other parts of 
the draft bill appear to do the same thing. By eroding 
requirements that are in place under the Ethics in Government 
Act and by creating an unnecessary legal conundrum because of 
inconsistencies with the Federal Advisory Committee Act, FACA, 
under which thousands of Boards, including EPA's Science 
Advisory Boards, operate and have operated since inception.
    To be clear on one point--and I trust that this is an area 
where my Republican colleagues and I agree--I am not opposed to 
industry-funded experts participating on Scientific Advisory 
Boards or in the peer-review process at the EPA. Their expert 
insight into processes and industry conduct can provide 
valuable guidance to an advisory body. That said, the Science, 
Space, and Technology Committee in the House of Representatives 
should not be putting forth legislation that undermines ethics 
requirements and other requirements that have governed 
thousands of advisory boards through the Executive Branch since 
1972 with the end result being an overrepresentation of 
industry voices on the Science Advisory Boards.
    EPA's science is tied to a mission, a mission to protect 
public health through environmental regulation. Scientific 
research, knowledge, and technical expertise are fundamental to 
EPA's mission and inform its regulatory functions. That need 
for expertise is exactly why Congress created advisory boards 
such as the Science Advisory Board, to provide independent 
advice on the science, which in turn allows the EPA 
Administrator to make sound regulatory decisions.
    I hope that instead of undermining the scientific advice 
EPA receives, we build upon EPA's scientific legacy. I hope we 
don't spend our time condemning American scientists and 
researchers simply because they are affiliated with research 
universities. And I want to note that under existing law 
scientists already recuse themselves from activities that 
directly or indirectly relate to finding decisions that are--
that affect them, besides suggesting that American scientists 
and researchers are adversaries of good science is not good for 
our country.
    Before yielding back, Mr. Chairman, I would like to enter 
into the record several letters sent to the Committee by 
various groups and individuals expressing their concerns about 
provisions in the bill. These letters are from concerned 
citizens, science, and environmental organizations, and 
individuals within the scientific research community around the 
country. I look forward to the testimony today and the 
questions. And with that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Bonamici follows:]

   Prepared Statement of Subcommittee Ranking Member Suzanne Bonamici

    Thank you, Chairman Stewart. Today the Subcommittee meets again for 
a hearing on the quality of the science being used by the Environmental 
Protection Agency. When I first read the title of this hearing, 
``Improving EPA's Scientific Advisory Process,'' I felt encouraged that 
this would be an opportunity to explore areas of bipartisan agreement 
on how to improve an important federal agency. I am sure my colleagues 
agree that, if and where there are problems in a government entity for 
which the mission is to protect public health and the environment, we 
should be steadfast in identifying any problem and work together to 
find meaningful solutions.
    According to the hearing charter, the purpose of this hearing is to 
receive independent scientific advice and testimony on draft 
legislation that seeks to strengthen public participation; improve the 
process for selecting expert advisors; expand transparency 
requirements; and limit non-scientific policy advice within the EPA 
scientific advisory process. All of these are good government 
principles that I support. Like many of my colleagues on this panel, I 
have heard from constituents who are frustrated with EPA decisions, EPA 
processes, or both. Many of those constituents tell me that what they 
need from EPA is consistency and efficiency.
    On closer examination of the discussion draft of the bill, however, 
I noted provisions that will not improve the Science Advisory Board 
structure or operation, but that instead would likely limit the quality 
of scientific advice the EPA receives. These provisions appear to tie 
the EPA's hands by denying the agency access to a vast pool of our 
country's most expert scientists and researchers in environmental 
science and health
    Last Congress, there was a very similar bill introduced, only the 
prior version contained a provision that would have resulted in many if 
not most scientists from academic institutions being eliminated from 
the EPA's Scientific Advisory Boards and being replaced by industry-
funded experts. I am glad to see that my Republican colleagues have 
eliminated that provision in this current draft. Although that 
provision is no longer there, other parts of the draft bill appear to 
do the same thing by eroding requirements that are in place under the 
Ethics in Government Act, and by creating an unnecessary legal 
conundrum because of inconsistencies with the Federal Advisory 
Committee Act (FACA), under which thousands of boards, including the 
EPA's Scientific Advisory Boards, operate and have operated since 
inception.
    To be clear on one point--and I trust that this is an area where my 
Republican colleagues and I agree: I am not opposed to industry-funded 
experts participating on the Science Advisory Board or in the peer 
review process at the EPA. Their expert insight into processes and 
industry conduct can provide valuable guidance to an advisory body. 
That said, the Science, Space, and Technology Committee in the House of 
Representatives should not be putting forth legislation that undermines 
ethics requirements and other requirements that have governed thousands 
of advisory boards throughout the executive branch since 1972, with the 
end result being an overrepresentation of industry voices on Science 
Advisory Boards.
    EPA's science is tied to a mission to protect public health through 
environmental regulation. Scientific research, knowledge, and technical 
expertise are fundamental to EPA's mission and inform its regulatory 
functions. That need for expertise is why Congress created advisory 
bodies such as the Science Advisory Board (SAB) to provide independent 
advice on the science, which in turn allows the EPA Administrator to 
make sound regulatory decisions.
    I hope that, instead of undermining the scientific advice EPA 
receives, we build upon EPA's scientific legacy. I hope that we don't 
spend our time today condemning American scientists and researchers 
simply because they are affiliated with a research university. And I 
want to note that scientists already recuse themselves from activities 
that directly or indirectly relate to finding decisions that affect 
them. Besides, suggesting that American scientists and researchers are 
adversaries of good science is not good for our country.
    Before yielding back, I would like to enter into the record letters 
sent to the Committee by various groups and individuals expressing 
their concerns about the provisions in the bill. These letters are from 
concerned citizens, science and environmental organizations, and 
individuals within the scientific research community around the 
country.

    Chairman Stewart. Thank you, Ms. Bonamici.
    Regarding your request for submitting your letters, without 
objection, so ordered.
    [The information appears in Appendix II]
    Chairman Stewart. I would note that not all of these 
letters from environmentalists mention concerns in H.R. 6564 
that may not be relevant to the discussion draft considered 
today, which I think you pointed out in your opening statement.
    If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
    At this time I would like to introduce our witnesses. And 
before I do, thank you for taking the opportunity and being 
with us today. Thank you for your service to your country and 
for your expertise in this matter.
    Our first witness is Dr. Michael Honeycutt, the Chief 
Toxicologist for the Texas Commission on Environmental Quality. 
He has been employed by Texas Commission on Environmental 
Quality since 1996 and has managed the division of 14 
toxicologists since 2003. His responsibilities include 
overseeing health affects, reviews of the air permit 
applications, overseeing the review of the results of Ambient 
Air Monitoring Projects, and overseeing the reviews of Human 
Health Risk Assessments for hazardous waste sites.
    Our second witness is Dr. Roger McClellan, an Advisor of 
Toxicology and Human Health Risk Analysis. Dr. McClellan has 
served as an Advisor to numerous public and private 
organizations. He has served on the Senior Advisory Committees 
for eight Federal agencies, he is the past Chairman of the 
Clean Air Scientific Advisory Committee, the Environmental 
Health Committee, Research Strategies Advisory Committee, and a 
member of the Executive Committee Science Advisory Board, U.S. 
Environmental Protection Agency. He received his doctorate from 
Washington State University in 1960.
    Our final witness today is Dr. Francesca Grifo, a Senior 
Scientist and Senior Policy Fellow at the Union of Concerned 
Scientists. Dr. Grifo came to UCS in 2005 from Columbia 
University where she directed the Center for Environmental 
Research and Conservation Graduate Policy Workshop and ran the 
Science Teachers Environmental Education Program. Prior to 
that, she was Director of the Center for Biodiversity and 
Conservation and a Curator at the Hall of Biodiversity at the 
American Museum of Natural History in New York. Dr. Grifo 
earned her doctorate in botany from Cornell University.
    It is clear that all of these witnesses have great 
expertise and background that could lend to this subject. As 
our witnesses should know, spoken testimony is limited to five 
minutes, after which the Members of the Committee will have 
five minutes to each ask questions.
    I now recognize Dr. Honeycutt for five minutes for his 
testimony.

              TESTIMONY OF DR. MICHAEL HONEYCUTT,

                      CHIEF TOXICOLOGIST,

           TEXAS COMMISSION ON ENVIRONMENTAL QUALITY

    Dr. Honeycutt. Good morning, Mr. Chairman and Members of 
the Committee. My name is Dr. Michael Honeycutt. I am Director 
of the Toxicology Division at the Texas Commission on 
Environmental Quality. I thank you for this opportunity to 
testify.
    A few years ago, I attended a scientific meeting in North 
Carolina where I struck up a conversation with a scientist who 
had been a member of the lead Clean Air Science Advisory 
Committee, or CASAC. I gave him my view on EPA's lowering of 
the lead standard in 2008 and he told me that he wished he had 
known this information when they were deliberating the lead 
standard and asked why I hadn't made comments. I told him that 
I had submitted written comments and he replied we don't read 
the written comments. You have to go to the public meetings to 
make your case in person.
    Why bother going through the pretense of having written 
comments to the CASAC if you are not going to read them? Oral 
testimony at the CASAC meetings is limited to three or five 
minutes, hardly enough time to present a thorough argument. 
This illustrates the need for EPA's advisory panels to be 
balanced. Having balanced panels brings all the information 
into consideration which reduces ``group think'' and leads to 
better policy decisions.
    In the past, the CASAC has been relatively well-balanced in 
terms of expertise and range of opinions. However, in recent 
years the trend has been towards inclusion of more 
epidemiologists from academia at the exclusion of other areas 
of expertise such as toxicologists and risk assessors with 
little or no representation of well-qualified scientists from 
states and industry. This is perhaps the results of a 
misunderstanding of the role of scientists play in these 
organizations together with a misplaced perception of potential 
conflicts of interest.
    I went to school with and have worked with many scientists 
who now work for industry. I know their companies did not ask 
them to check their ethics and morals at the door when they 
took their jobs in industry. Given that academicians bring 
their own biases into the CASAC, there is no reason to believe 
that well-qualified experts from state agencies, consulting 
firms, or industry would be disproportionately biased.
    One concern that is often raised when deciding to exclude 
certain parties in the process of EPA peer review is bias due 
to sources of funding. I believe that receiving funding from 
the EPA in the form of research grants can also be seen as a 
potential source of bias. Under the current system, the EPA can 
select who it wishes to fund, choose key studies to support 
regulatory decisions, place the authors of those studies on the 
CASAC, and then ask their opinion on the resulting analysis and 
policy. Clearly, this poses a potential conflict of interest, 
even if the study authors recuse themselves from discussions 
which directly addresses their own work.
    We would instead propose a more balanced approach such as 
that employed by the nonprofit organization Toxicological 
Excellence in Risk Assessment, or TERA. TERA believes, and we 
concur, that an objective evaluation by independent experts 
with a variety of viewpoints is critical to the credibility of 
any peer review. TERA strives to include a range of 
perspectives on each panel, including diverse professional 
affiliations. The evaluation of real or perceived bias or 
conflict of interest is an important consideration for both 
peer review and consultation panels and every effort is made to 
avoid conflicts of interest and biases that would prevent a 
panel member from giving an independent opinion on the subject.
    TERA's Conflict of Interest Policy identifies the following 
situations as examples of those that would create a real or 
perceived conflicts of interest: working for an organization 
that sponsors or contributes to the document to be reviewed, 
having direct personal financial investments benefiting from 
the outcome of the review, or authoring or providing 
significant comments on the document being reviewed.
    The TERA Conflict of Interest Policy also discusses bias. 
For these reviews, the term bias means a predisposition towards 
the subject matter under consideration that could influence the 
candidates of viewpoint. Examples of bias would be situations 
in which a candidate: as previously taken a public position on 
the subjects to be discussed or is affiliated with an industry, 
governmental, public interest, or other group with a partiality 
regarding the subjects to be discussed.
    As you can see from these examples, such potential 
conflicts or biases could apply equally to academicians as they 
may to scientists from industry or any other organization. 
Therefore, it is our belief that there is a need for 
reconsideration of current conflict-of-interest policies 
regarding EPA advisory panels. There is also much improvement 
needed with regards to a balanced peer review that incorporates 
numerous perspectives and areas of expertise. We believe that 
these changes will result in a stronger peer review process in 
ultimately better policy decisions.
    The measures outlined in the bill are common sense and 
already in use by other groups such as the National Academy of 
Sciences and TERA. You will hear others testify that EPA has 
ample guidance on conflict of interest, bias, and balance. The 
problem is they don't consistently follow it.
    Thank you again for the opportunity to speak with you today 
and I would be happy to answer any questions you might have.
    [The prepared statement of Dr. Honeycutt follows:]
    [GRAPHIC] [TIFF OMITTED] 80553.008
    
    [GRAPHIC] [TIFF OMITTED] 80553.009
    
    [GRAPHIC] [TIFF OMITTED] 80553.010
    
    Chairman Stewart. Thank you, Dr. Honeycutt.
    Dr. McClellan?

           TESTIMONY OF DR. ROGER MCCLELLAN, ADVISOR,

           TOXICOLOGY AND HUMAN HEALTH RISK ANALYSIS

    Dr. McClellan. Good morning, Mr. Chairman, Members of the 
Subcommittee. Thank you for the invitation to share my views 
with you on approaches to ``Improving EPA's Scientific Advisory 
Processes.'' I requested my written comments be entered into 
the record in their entirety.
    I applaud the Subcommittee for holding a hearing on this 
important topic. The receipt of sound scientific advice from 
scientists and engineers outside of EPA is of paramount 
importance to the Agency fulfilling its mandated 
responsibilities for protection of human health and the 
environment. The comments I offer today draw on 50 years of 
experience offering advice to public and private organizations, 
as well as my receipt of advice as a scientist and research 
manager.
    My service as a Scientific Advisor to the EPA began with 
the creation of the Agency. The new EPA included an 
Environmental Radiation Program previously located in U.S. 
Public Health Service. The transfer of the program to EPA 
included transfer of the environmental radiation exposure 
advisory committee that I would soon chair. Last summer, I 
provided advice to the Agency on its Multi-Pollutant Air 
Quality Program.
    During the intervening 40 years, I have served as a member 
of SABs, Executive Committee, and on numerous specific 
committees, including service as Chair of the Clean Air 
Scientific Advisory Committee, it is clear from the amount of 
time that I have spent in those activities now measured in 
years that I think they are of great value to the Agency. 
Moreover, I think the advisory committee activities can be 
improved to substantially enhance their value to the EPA, to 
the Nation, and to the participants. The changes in legislation 
proposed by the Subcommittee are a small step in the right 
direction. However, more is needed.
    I suggest that we start with a comprehensive coordinated 
internal and external review of all of EPA's advisory 
committees across all of its offices and programs and their 
linkage to relevant authorizing legislation and the Federal 
Advisory Committee Act.
    Second, the review should focus on the purpose of each 
advisory activity and the efficiency and effectiveness of the 
past activities and how they can be further enhanced.
    Three, the review should consider how the advisory process 
can be broadened to beyond the current focus on using advisors 
and consultants selected from a small portion of the scientific 
community to include individuals drawn from a national pool of 
talent, including those employed in the private sector.
    Four, the review should consider how best to structure 
future advisory activities so they focus on obtaining 
scientific advice unfettered by any ideological linkage to how 
the advice may advance the Agency's current policy or political 
goals.
    Five, the review should also focus on how to enhance public 
participation and transparency in the nomination and selection 
of advisors and consultants, because this is a very blurred 
boundary, including EPA's internal processes for selecting 
those individuals. This review should include what I call the 
aspects of the selection process carried out behind the doors 
of the Administrator's office.
    Six, the reviews should consider the role of Science 
Advisory Committees in addressing charge questions addressed 
and developed by the Agency staff, which typically have 
preordained answers versus obtaining advice generated by 
committee members based on their broad view of scientific 
issues and science.
    Seven, special attention should be given to recent actions 
to select members of the Hydraulic Fracking Impact and 
Polychlorinated Biphenyl Review Committees. Nominees for both 
committees represent a much-needed broader cross-section of 
scientific talent then customarily considered for appointment 
to EPA committees. I urge the Agency to select the best 
qualified individuals from that broad talent pool, including 
knowledgeable scientists and engineers employed in the private 
sector.
    In summary, critical review of EPA's scientific advisory 
process will identify ways to enhance the advisory process that 
will improve EPA's ability to protect human health and the 
environment now and in the future.
    I will be pleased to address any questions you may have. 
Thank you again for the opportunity to appear at this hearing 
addressing an extremely important topic. Thank you.
    [The prepared statement of Dr. McClellan follows:]
    [GRAPHIC] [TIFF OMITTED] 80553.011
    
    [GRAPHIC] [TIFF OMITTED] 80553.012
    
    [GRAPHIC] [TIFF OMITTED] 80553.013
    
    [GRAPHIC] [TIFF OMITTED] 80553.014
    
    [GRAPHIC] [TIFF OMITTED] 80553.015
    
    [GRAPHIC] [TIFF OMITTED] 80553.016
    
    [GRAPHIC] [TIFF OMITTED] 80553.017
    
    [GRAPHIC] [TIFF OMITTED] 80553.018
    
    [GRAPHIC] [TIFF OMITTED] 80553.019
    
    [GRAPHIC] [TIFF OMITTED] 80553.020
    
    [GRAPHIC] [TIFF OMITTED] 80553.021
    
    [GRAPHIC] [TIFF OMITTED] 80553.022
    
    [GRAPHIC] [TIFF OMITTED] 80553.023
    
    Chairman Stewart. Thank you, Dr. McClellan.
    Ma'am, Dr. Grifo.

               TESTIMONY OF DR. FRANCESCA GRIFO,

          SENIOR SCIENTIST AND SCIENCE POLICY FELLOW,

                 UNION OF CONCERNED SCIENTISTS

    Dr. Grifo. Good morning, Chairman Stuart and Ranking Member 
Bonamici. Thank you for the opportunity to share my concerns 
regarding the proposed amendments to the ERDDA, or the 
Environmental Research, Development, and Demonstration 
Authorization Act of 1978. The changes described in the 
amendments I believe would slow down the work of the EPA's 
Science Advisory Board--which I will refer to as SAB--remove 
long-standing and widely accepted practices for dealing with 
conflicts of interest, and reduce expertise.
    Congress articulated broad requirements for balance, 
independence, and transparency in the Federal Advisory 
Committee Act. FACA instructs agencies to ensure committees 
will not be inappropriately influenced by special interests. 
Currently, all the members of EPA's SAB are appointed as 
Special Government Employees and subject to most of the 
government's ethics rules. They are required to report 
information about income, activities, assets, liabilities--it 
is quite a long list--and to answer questions regarding causes 
for impartiality and previous involvement and public statements 
on issues under consideration.
    Conflict of interest applies to financial interest; bias 
applies to intellectually or ideologically motivated points of 
view. They are different. Conflict of interest should be 
eliminated. Bias should be managed by appointing a committee 
such that a balance of perspectives is achieved except for when 
a perspective is far from the mainstream or the individual is 
unable to consider other points of view. It is important to 
collect sufficient information from candidates and obtain 
public input so that the designated Federal officials can make 
their best determinations on these issues.
    On to a couple of provisions in the discussion draft. 
Inserting risk or hazard assessment in ERDDA expands the scope 
of the SAB's work to potentially include every risk or hazard 
assessment proposed by the Agency. This would overwhelm already 
limited resources and delay assessments. When these assessments 
can, when necessary, be reviewed by other means, why add this?
    Holding a public information gathering session before major 
advisory activities to discuss the state of related science 
will consume time and resources. Since the SAB meetings are 
open to the public with time set aside for their oral comments, 
the Board accepts the written comments and will be discussing 
the state of the science, what value does this add?
    Requiring SAB to respond in writing to public comments is a 
burden and distraction given that special interests could 
arrange to have thousands and thousands of comments submitted 
every week. Since committees read and respond to written public 
comments in the final report content and to oral comments 
during the proceedings, what does this add?
    If persons affiliated with entities that may have a 
potential interest in the Board's activities are not excluded 
from the Board but simply required to fully disclose the 
conflict, the objectivity of an advisory committee and the 
public's trust and the advice rendered are irrevocably damaged. 
Scientists are not immune to influence by their financial 
prospects conflicted experts can influence panel decisions by 
their voting, by dominating the discussion, and by pressuring 
other panelists. Disclosure of individual and institutional 
financial relationships is a critical but limited first step. 
Disclosure does not resolve or eliminate conflicts. When a 
scientist has irreplaceable expertise but has a conflict, that 
expert can be invited to present to the committee without 
serving on the committee.
    The provision requiring that at least ten percent of the 
membership of the Board be from state, local, or tribal 
governments sounds like stakeholder representation and could be 
interpreted to mean that these members of the SAB would be 
appointed as representatives rather than Special Government 
Employees and they would not be subject to most of the 
government ethics rules and hence able to serve without 
disclosure of conflicts of interest. There are reports from the 
Government Accountability Office, Bipartisan Policy Center, and 
Keystone all state that members of committees that consider 
scientific and technical issues should be appointed as Special 
Government Employees.
    If experts cannot participate in the advisory activities 
that potentially involve review of their own work, even if 
their work is one of hundreds of studies under consideration, 
some specialized experts would be disqualified. Standard 
practice among Federal agencies and the National Academies is 
to recuse scientists from peer review of their own work but 
allow those scientists to serve on the committee.
    Just a couple of--four quick recommendations. The 
Bipartisan Policy Center report and Keystone report have 
extensive recommendations so I am just going to go through four 
that I believe are critical. All Federal scientific advisory 
panels and subcommittees, including those put together or 
managed by contractors, should be subject to FACA and have all 
members appointed as special government employees.
    The goal of agencies should--two, the goal of agencies 
should be to appoint only panelists who do not have conflict of 
interest. This is reinforced in the Bipartisan Policy Center 
report as well as the Keystone report. And agencies should 
select panel members based on their expertise and on their 
ability to contribute to the panel deliberations without 
conflict of interest or undue bias, again, Bipartisan Policy 
Committee and Keystone.
    Waivers should be publicly available and only issued as 
rare, temporary exceptions, and panelists with waivers should 
not be allowed to serve in leadership positions.
    And finally, panel chairs should remind panelists at every 
meeting to disclose new or previously undisclosed information 
relevant to determining conflict of interest or bias.
    Thank you and I will be happy to answer questions.
    [The prepared statement of Dr. Grifo follows:]
    [GRAPHIC] [TIFF OMITTED] 80553.024
    
    [GRAPHIC] [TIFF OMITTED] 80553.025
    
    [GRAPHIC] [TIFF OMITTED] 80553.026
    
    [GRAPHIC] [TIFF OMITTED] 80553.027
    
    [GRAPHIC] [TIFF OMITTED] 80553.028
    
    [GRAPHIC] [TIFF OMITTED] 80553.029
    
    [GRAPHIC] [TIFF OMITTED] 80553.030
    
    [GRAPHIC] [TIFF OMITTED] 80553.031
    
    [GRAPHIC] [TIFF OMITTED] 80553.032
    
    [GRAPHIC] [TIFF OMITTED] 80553.033
    
    [GRAPHIC] [TIFF OMITTED] 80553.034
    
    [GRAPHIC] [TIFF OMITTED] 80553.035
    
    [GRAPHIC] [TIFF OMITTED] 80553.036
    
    [GRAPHIC] [TIFF OMITTED] 80553.037
    
    Chairman Stewart. Once again, I would like to thank the 
witnesses for being available for questioning today and we look 
forward to hearing your responses to some of our concerns.
    Committee rules limit questioning to five minute rounds 
alternating between Republicans and Democratic Members of the 
Subcommittee. After all Subcommittee Members have asked 
questions, I ask unanimous consent to recognize Committee 
Members not on the Subcommittee.
    Without objection, so ordered.
    The Subcommittee Chair recognizes himself for five minutes 
to begin questioning.
    I would like to kind of put this in historical perspective 
to get a larger view if we could. And let me begin with some 
things that I think will be just very easy to answer. I think 
we agree that it is important that our Scientific Advisory 
Panels be viewed as being fair and unbiased. That is the 
outcome that we are looking for here. We all would agree with 
that. That serves the American people, and frankly, it serves 
the EPA as well. And this shouldn't be a partisan issue and I 
don't think that it is a partisan issue.
    And I think I would ask you, do you believe that the EPA's 
Boards, in the view of the public but also in the view of those 
entities in which they regulate, are they now viewed as being 
unbiased and arbitrary? Anyone who would like to just voice an 
opinion on that?
    Dr. McClellan. Let me start by saying I certainly endorse 
your issue in terms of starting with a bipartisanship. As I 
look around the room at the portraits here, I think I testified 
before a number of those fine persons and both parties. So it 
is not a partisan issue, and I would further say that I have 
known many--hundreds of individuals who have served EPA in 
Advisory Committees. They are very talented individuals, and if 
you do the job well, it takes a lot of time.
    Having said that, I don't think that the Committee has 
approached science always with a fair and balanced view. I 
think on many occasions individuals stumbled over their 
understanding of the science and the relationship to the 
policy. They are very quick to jump into the policy arena and 
advocate a lower standard or a specific nature of the standard 
which goes well beyond the issue of the science. So I think 
that distinction, it needs to be done better.
    Chairman Stewart. Well, let me ask the question 
differently. I am asking something really quite simple, and 
that is that you think there is a growing perception, a growing 
concern among the public and among those entities that are 
regulated that the panels may not be as unbiased as we hoped 
they would be? That is a yes or no. Do you think there is a 
growing concern of that?
    Dr. McClellan. Yes, there is.
    Chairman Stewart. Yes----
    Dr. McClellan. It is at all levels.
    Chairman Stewart. Okay.
    Dr. McClellan. I would say that goes from blue-collar 
workers that I meet in a mine or out in a fracking site in 
Wyoming to executives in----
    Chairman Stewart. Okay. So a wide range. And Dr. Honeycutt, 
you seem to indicate yes. And Dr. Grifo?
    Dr. Grifo. Respectfully disagree.
    Chairman Stewart. Okay. I would like to come back to that 
if I could, and I will. And then maybe just assuming that there 
is a growing perception problem, is this something that is 
relatively new? Ten years ago or 20 years ago was there more 
trust in this process? Did the people and the regulated 
agencies--did they feel like the advisory panels or advisory 
boards were giving better recommendations? Or is this something 
that has evolved in--you know, in more recent time? Again, a 
brief answer if you could because I would like to come back to 
you, Dr. Grifo, if we could.
    Dr. McClellan. This is an issue that has really been there 
from the beginning. In my written testimony I recount my 
service as Chair of the ad hoc committee to review the first 
lead criteria document. So----
    Chairman Stewart. So you think it has been a problem for a 
while?
    Dr. McClellan. It has been a problem for a long period of 
time and a central part of the issue is mixing up science which 
should inform but not dictate policy. They are different.
    Chairman Stewart. Okay. Dr. Honeycutt, would you agree or 
disagree?
    Dr. Honeycutt. I would mainly agree with what you are 
saying.
    Chairman Stewart. Okay. And either way, I think it is 
appropriate to recognize that there is a problem whether it has 
been recent or long-standing. It is time that we recognize that 
and try to address it through this legislation.
    And Dr. Grifo, you respectfully disagreed. Would you expand 
on that a little bit?
    Dr. Grifo. I think we have a disagreement over the nature 
of the problem and the details, and I think we will probably 
get into that. I mean I am not going to sit here and say that 
every advisory committee is perfect. You know, they are not. 
But I do believe that they are--my problems with them are in a 
different direction than yours, I suspect.
    Chairman Stewart. Okay. And that is fair. But I think we 
can agree that this process could be improved?
    Dr. Grifo. Always.
    Chairman Stewart. Always, yes. There are concerns, whether 
they are recent or whether they are long-standing, there are 
concerns, and in my opinion, it is a growing concern having 
some background in this industry, in one industry that is 
regulated heavily by the EPA that there is a growing perception 
problem, and that is why this legislation is meaningful. That 
is why this is a great opportunity to address that because, 
once again, everyone is better served if there is a perception 
that this process is fair and that it listens to all opinions 
and all voices. I would like to pursue that, and maybe I will 
individually with you, but alas, my time is up.
    So I will now turn to the time over to, again, the Ranking 
Minority Member.
    Ms. Bonamici. Thank you very much, Chairman Stewart. And 
thank you all for your testimony and for your years of work.
    One of the things that I have heard frequently here in 
Congress is that we don't need new laws; we just need to 
enforce what we have. So Dr. Honeycutt, in your testimony you 
said that you will hear others testify that EPA has ample 
guidance on conflict of interest, bias, and balance. The 
problem is they don't consistently follow it. So I am glad you 
recognize that or identify that as an issue.
    As I mentioned in my opening remarks, I do hear from 
constituents who questioned the regulations and rules being 
promulgated by the EPA, and central to their concerns is the 
slow pace with which regulations are developed, implemented, 
and processes seem to slow down. And that is a concern that is 
expressed about other Federal agencies as well.
    Because we hear so often in this era of what seems to be 
governing from one crisis to the next, what we are looking for 
is certainty in the communities, certainly the business 
community was to have certainty and stability to promote 
growth. So in that context, Dr. Grifo, based on your expertise 
and studying this issue, would the changes to EPA's Science 
Advisory Board under the legislation we are discussing today 
expedite or improve the EPA's process and receiving independent 
scientific advice?
    Dr. Grifo. In the amendments there are one or two things 
that I think are actually helpful, but I think the vast 
majority would have the long-term effect of slowing us down. 
And I think as you have rightly said, whether you are coming 
from a business perspective or, you know, a constituent-other-
regular-people perspective, slowdown isn't good. I mean 
slowdown means that, you know, the regulations are slower, the 
health impacts continue, and so on, but it also means 
uncertainty for business and it also means that, you know, 
things happen. I mean if we don't do this right you end up with 
products on the market that are tainted or, you know, 
problematic, and that is not good for business either. So 
getting it right and doing it in a timely fashion is what I 
think we are all after.
    Ms. Bonamici. Thank you very much. And I know in your 
testimony you talked about one of the issues was this need to 
respond in writing to public comment, and I think you have 
effectively identified some of the problems that could come 
with that.
    And I wanted to ask another question too. When a draft bill 
was introduced in the last Congress, it included the provision 
that would have limited the input of academic scientists to 
just ten percent of advisory panels, and I mentioned that is 
not in this current version of the bill. It is unclear why it 
was taken out, but this provision could be placed back in at 
some time. So I wonder if you could explain for the Committee 
what the impact of the science at the EPA would be if that 
were--type of provision were included in the final bill?
    Dr. Grifo. I think what is important--and we are 
conflating--are conflict of interest and bias. I think that 
what we need to really look at is getting committees that have 
no conflict of interest or very minimal and as a rare exception 
as the National Academies suggest. And really, you know, it is 
not about industry or not industry. It is about bias and 
conflict of interest. And I think we are going to find people 
with bias and conflicts in industry and in academia. And I 
think the point of submitting a lot of information, the point 
of having opportunities for public comment is to be able to 
allow the agencies--and there are really amazing people at the 
agencies that spend enormous amounts of time doing the 
screening to get it right, to get the combination that is 
correct.
    Ms. Bonamici. Thank you. To your knowledge did either the 
Keystone Center or the Bipartisan Policy Center reports 
specifically recommend that there be more people from industry 
on advisory panels at the cost of reducing or eliminating some 
of the academic government-funded scientists?
    Dr. Grifo. No, absolutely not. And I should say, you know, 
it was rather an amazing and wonderful experience to be on the 
Keystone, that research integrity roundtable, because it was 
folks from academia, we had people from Baird, Dow, DuPont, 
American Chemistry Council, and when we sat around those tables 
and had those extended conversations--and we met off and on for 
18 months--we agreed. We came together on the things that are 
in there. In the same way with the Bipartisan Policy Center, 
the name Bipartisan----
    Ms. Bonamici. Right.
    Dr. Grifo. --Policy suggests a broad input. And in fact, if 
you look at the list of those participants, they came from 
across the spectrum. And what we all agreed on was--I mean in 
both of these reports is that what is important is really 
looking at bias so that you get a balanced panel, conflict of 
interest so that you get a panel that minimizes or eliminates 
those conflicts.
    Ms. Bonamici. And just to follow up then, are the conflict-
of-interest principles laid out in the draft bill we are 
discussing based on the recommendations of Keystone or the 
Bipartisan Policy Center?
    Dr. Grifo. No.
    Ms. Bonamici. Thank you very much. And I yield back. Thank 
you.
    Chairman Stewart. Thank you.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. And 
thank you for holding this very thought-provoking hearing 
today.
    I would like to just read something from Dwight Eisenhower 
in his farewell address. Most people remember Eisenhower's 
admonition about the military-industrial complex, but they 
ignore what Eisenhower spent much more time warning us about in 
his farewell address, and I will read this portion of it. ``The 
prospect of domination of the Nation's scholars by Federal 
employment project allocations and the power of money is ever-
present and is gravely to be regarded. Yet, in holding 
scientific research and discovery in respect, we should, we 
must also be alert to the equal and opposite danger that public 
policy itself could become the captive of a scientific 
technological elites.''
    That is Dwight Eisenhower. Now, we almost never hear that 
quote but we hear the military-industrial complex all the time. 
I think that Eisenhower was a man of vision and a patriot in 
both of the areas where he warned us about. And in terms of 
what he was warning us about there, as I just read, the 
Congressional Research Service has done in the report, which 
you opened in your opening statement, Mr. Chairman, I would 
like to submit at this point that entire report for the record 
of this hearing.
    Chairman Stewart. Without objection.
    [The information appears in Appendix II]
    Mr. Rohrabacher. Okay. What the report found is that almost 
60 percent of the members of EPA's chartered SAB and CASAC, 
that is 34 of the 58 members, have directly received National 
Center for Environmental Research Grants from the Agency since 
2000. These advisors served as principal or co-investigators 
for EPA grants totaling roughly $140 million.
    Now, what, unfortunately, we hear in situations like this, 
and we have talked about expertise and it can also be bias. 
Expertise is biased if those experts are from the private 
sector, but if those experts receive their experience by 
getting government grants and are part of government studies 
which have put them part of this elite that Eisenhower warned 
us about, now, that is a positive thing. All of a sudden that 
becomes experience.
    And I think that we have got to pay attention to this 
because bias can result in cliques that are formed among people 
who make sure people in the clique get the research grants and 
are part of the system that determines public policy, which is 
exactly what Eisenhower was warning us against.
    The research, of course, that we are talking about, 
example: four of seven members of the Clean Air Scientific 
Advisory Committee, which reviewed the EPA's Final Particulate 
Matter on the National Standards, have received million-dollar-
plus EPA grants related to particulate matter since 2010. Now, 
if that isn't bias, I don't know. It is one thing to be able to 
have the scientific knowledge to judge what is going on, but to 
have already participated in research, that indicates a bias 
and something we need to address. And I would hope--and maybe I 
will. Doctor, maybe we should give you a chance to comment on 
what I have just stated, because obviously I am aiming this at 
the EPA.
    Dr. Grifo. Happy to, sir.
    Mr. Rohrabacher. Yes.
    Dr. Grifo. I think again that is not what I am saying. Bias 
matters; conflict of interest matters. Those are the things we 
need to examine. There are very well-equipped experienced folks 
in the agencies spending inordinate amount of time examining 
those things and coming to the best decisions they can with the 
guidance from the Office of Government Ethics, the General 
Services Administration, all those folks that are working on 
this. And I think what we are talking about are not necessarily 
including or excluding people because of the institutions that 
they work for. It is about what they turn in on those forms. 
And those forms are extraordinarily extensive. I mean if 
anything, they are--you know, they are very burdensome and 
long.
    Mr. Rohrabacher. But we do----
    Dr. Grifo. But it is the information that we need in order 
to bury carefully make those determinations.
    Mr. Rohrabacher. Well, Mr. Chairman--and obviously, the 
report that has been given to us by the Congressional Research 
indicates that we--that there are people who are in the clique 
who are getting these grants and then getting the jobs. And 
Eisenhower warned us about this, and quite frankly, we have 
seen evidence of that in a number of areas, especially in 
fracking and these other things that you mentioned.
    Thank you very much for the hearing today.
    Chairman Stewart. Yes, thank you, Mr. Rohrabacher.
    Now, we turn to Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman. And I just want to 
say, first, I had the privilege as the former Ranking Member of 
the Investigation and Oversight Subcommittee--and I can recall 
well the numerous questions about EPA's scientific integrity, 
and specifically, the concerns about the scientific advisory 
processes. And while I understand the concerns and those 
expressed by the witnesses today, I think the aims of the draft 
bill that is in front of us with it, it is not really clear to 
me that this bill and the sort of recommended changes espoused 
by Dr. Honeycutt and Dr. McClellan would actually create the 
kind of improvements to the process that the bipartisan group, 
the Keystone group identified as recommended changes to address 
directly address the concerns that you have just expressed.
    Dr. McClellan, I want to ask you because you have served on 
advisory boards before, and so I am curious, did you have the 
occasion in your service to read all of the comments that were 
submitted in addition to the testimony that you heard when--
during your service?
    Dr. McClellan. As you have noted, I served on numerous 
committees. Committees that we are specifically focusing on 
here in terms of public input are those that come under the 
Clean Air Scientific Advisory Committee, which I chaired. I can 
assure you that I read every public comment that came forward. 
I am disappointed I cannot say that for many of my colleagues.
    Ms. Edwards. But did you have----
    Dr. McClellan. I also--
    Ms. Edwards. Let me just--because I just have a limited 
amount of time. You served on those committees. You read all of 
the comments. Did you feel a need to respond to every single 
comment that was submitted to you even though you considered it 
in your service?
    Dr. McClellan. There weren't many of those comments that 
deserved comment from the Agency as it proceeded with its 
rulemaking process.
    Ms. Edwards. Dr. Grifo----
    Dr. McClellan. It has done that in some cases. In many 
cases I think the Agency is deficient in responding. I think 
the Agency and the Committee frequently dismisses public 
comments to provide a three minute or a five minute comment 
period on very important matters is not sufficient. That is not 
engaging the public.
    Ms. Edwards. So I am a little bit unclear. Dr. Grifo, I 
wonder if you can tell me in the work that you did coming up 
with--on these panels coming up with recommendations, do you 
believe that it is feasible given the level of work and the 
speed with which sometimes industry actually wants the 
stability and wants the Agency to operate that it would be 
possible with 17 full-time employees to respond to every single 
comment or even the significant ones? And is it your experience 
in reviewing these matters that there are times when comment is 
submitted and at a staff level it is reviewed and factors into 
the decision-making and the process whether or not it is 
actually responded to or whether or not anyone was even 
listening during the hearings?
    Dr. Grifo. You know, in anticipation of today I did a 
little bit of a survey calling several colleagues that serve 
regularly on panels, as you do, sir. And in fact, you know, 
they do look at them. I mean they do read them. They do take 
them seriously. And, you know, if they don't appear in the 
final report is because the consensus of the Committee was that 
it wasn't appropriate for them to be in that final report.
    So I think what is important here is that those public 
comments do come in and that there is an opportunity for the 
panel members to read them. But the written response could 
literally bring everything to a stop. Thousands and thousands 
and thousands of comments could be submitted on a weekly basis 
and there is no way there would ever be time to do anything 
else.
    Ms. Edwards. Thank you. And then I want to ask you actually 
about the process a little bit and this idea of conflicts of 
interest because it is possible to have conflicts of interest 
that are fully disclosed or analyzed and still participate 
effectively in a process, isn't that true?
    Dr. Grifo. We currently have a system of waivers where 
waivers are actually given out so that people with conflicts 
may continue to serve. And one of the great things that came 
out of Dr. Holden's memo is this notion that all of those 
waivers should be made public.
    Ms. Edwards. Thank you. And then lastly, let me just, you 
know, just say for the record. I mean there are plenty of times 
when a person has a conflict or some kind of interest and they 
have an expertise that is necessary, and it becomes necessary 
to involve them in the process and make sure that there is 
transparency in that disclosure and evaluation and move forward 
with the kind of assessments we need.
    And with that, my time is expired.
    Chairman Stewart. Thank you, Ms. Edwards.
    So we now turn to Dr. Broun.
    Mr. Broun. Thank you, Mr. Chairman.
    The Committee rules state that ``Members of the Committee 
or Subcommittee have two weeks from the date of the hearing to 
submit additional questions in writing for the record to be 
answered by witnesses who have appeared in person. The letters 
of transmission and your responses thereto shall be printed in 
the hearing record.'' Dr. Grifo, you testified in front of the 
Subcommittee on Investigations and Oversight on October the 
13th, 2011, for a hearing titled ``The Endangered Species Act: 
Reviewing the Nexus of Science and Policy.'' November 16, 2011 
you were sent questions for the record and asked for responses 
within two weeks. In fact, Mr. Chairman, I asked for a 
unanimous consent to enter into the record at this point the 
letter, as well as the questions sent to Dr. Grifo.
    Chairman Stewart. Without objection.
    [The information appears in Appendix II]
    Mr. Broun. Thank you. Despite multiple reminders from 
Committee staff, we still have not received your answers for a 
year-and-a-half. Why did you ignore the Committee's questions?
    Dr. Grifo. I sent them. I will look into why you don't have 
them.
    Mr. Broun. We have not received them and I am not sure that 
I can--well, if you say you sent them, I would like to have 
proof of that.
    Dr. Grifo. Absolutely.
    Mr. Broun. What date did you send those, Dr. Grifo?
    Dr. Grifo. I don't know. I would have to go back and look. 
I know they were late. It was not within the two weeks. I will 
clearly tell you that. But it was within a month, and I know I 
sent them. I will have to go back and look at the record.
    Mr. Broun. Well, we have not received those and I am not 
sure----
    Dr. Grifo. Well, then, we need to clear that up, sir.
    Mr. Broun. Okay. Well, why should this Committee believe 
that you would respond to Member's questions if the Committee 
staff has reminded you over and over again? And this is the 
first time I have heard as a Chairman of that Committee that 
you sent the answers. Why should we accept any thought that you 
will respond to the Committee's questions today?
    Dr. Grifo. Because I have testified dozens of times and I 
have Respondent on all of those occasions.
    Mr. Broun. Well, you have an even----
    Dr. Grifo. And I will have to look into this one and find 
out what happened, sir.
    Mr. Broun. Well, Dr. Grifo, you have--even in spite of the 
Committee staff asking you over and over again, this is the 
first time we have heard.
    When you testified on October 13, you were under oath at 
that time and you indicated a willingness to respond to those 
questions. You say that you have. I think you failed to do so 
frankly. Why should we believe anything that you say?
    Dr. Grifo. Because I am telling you that you can look at 
the record for other hearings and you will see that I have 
responded, and I will look into this and see what happened.
    Mr. Broun. Well, I certainly hope so.
    Dr. Honeycutt and Dr. McClellan, Dr. Grifo believes that 
the process of panelists recusing themselves from review 
proceedings if their work is being discussed. She believes 
that, that the panelists should recuse themselves. Do you 
believe this practice of self-recusal actually works, Dr. 
Honeycutt?
    Dr. Honeycutt. No, sir. In fact, we have seen that not 
happen with the ozone case specifically--or especially. 
Actually, at the last CASAC public meeting, two study authors 
of the two studies that were the basis of the standard did 
recuse themselves at the last panel meeting, but previous panel 
meetings and they did not.
    Mr. Broun. Dr. McClellan?
    Dr. McClellan. No, I would certainly agree that it has been 
inconsistent in the manner of which that has been done. Dr. 
Honeycutt is correct and I was in attendance at that last 
meeting. Those two authors did take special effort at that 
time. It was clear that there was some change underway in terms 
of the Agency.
    Mr. Broun. Do either of you have suggestions of how we 
should do the recusal process if a panelist's work is being 
discussed?
    Dr. Honeycutt. Well, actually, in my opinion, they 
shouldn't have been on the panel in the first place.
    Mr. Broun. Okay.
    Dr. Honeycutt. There were only two studies that were the 
basis of the standard and there are dozens of scientists that 
could have been chosen to be on the panel. And it makes no 
sense to me why you would have those study authors on the 
panel.
    Mr. Broun. So a better selection process.
    Dr. McClellan?
    Dr. McClellan. I would agree with Dr. Honeycutt statement 
there. In terms of that particular situation, there were a 
broad group of scientists that could have served and it was 
probably inappropriate because of the very clear and central 
role of those individuals. Unfortunately, the situation was one 
in which the individual who was serving as Chair of CASAC was 
one of the authors in question. So he was put into a very 
difficult position.
    Mr. Broun. Well, thank you, gentlemen. My time is about up 
and I just want to say that I know when I talk to constituents 
and Georgia about the scientific integrity of EPA, I see a 
tremendous disgust and disbelief in the scientific integrity of 
EPA.
    Mr. Chairman, with that I will yield back.
    Chairman Stewart. Sir, thank you, Dr. Broun.
    Mr. Weber?
    Mr. Weber. Thank you, Mr. Chairman.
    I am going to start with you, Dr. Grifo. I believe you 
stated--well, let me say a couple things first. I heard it said 
one time that all scientists are only convinced of one thing, 
and that is that every scientist before them was wrong. Excuse 
me. They can't always agree. In fact, to Vice Chairman 
Stewart's first question, is there a perceived problem with the 
EPA? I think 66-2/3 of you agree and 33-1/3 disagree, case in 
point.
    Dr. Grifo, I think you stated that any panel member should 
be ``Special Government Employees.'' Is that accurate?
    Dr. Grifo. For this particular Science Advisory Board, yes.
    Mr. Weber. Yes, ma'am. Do you contend that only Special 
Government Employees can be unbiased?
    Dr. Grifo. No, sir. I contend that only Special Government 
Employees have full examinations for conflict of interest.
    Mr. Weber. So what you are saying is that normal people, 
not that Special Government Employees aren't normal, and we 
could debate that, are not able to be unbiased. And I want to 
specifically hone in on industry here. Would you agree with the 
statement that most American entrepreneurs want a good clean 
environment for themselves, their families, their employees, 
indeed their customers? I mean after all, the longer a customer 
lives, the more products they can buy. That sounds kind of 
selfish, doesn't it? Do you agree, disagree with that?
    Dr. Grifo. I agree that. You know, I can only answer that 
in one way, as a mom. And I think that, you know, there are 
moms across this country that care deeply about the health and 
safety of their children.
    Mr. Weber. Well, and that is very commendable. I am not a 
mom but I am a dad and I got 3 kids and 4-1/2 grandkids. And do 
you have any grandchildren?
    Dr. Grifo. No. Do I look that old?
    Mr. Weber. I highly recommend them.
    Dr. Grifo. Good.
    Mr. Weber. Just as long as they are EPA-certified. I will 
say that they do have emissions when they are babies though and 
so you might want to take that into account.
    Dr. Grifo. Yes, sir.
    Mr. Weber. I own a business, and air-conditioning business, 
where we dealt with the EPA over Freon issues, and I can tell 
you as a father and a grandfather, industry has a vested 
interest in making sure that we have the best product, the best 
environment----
    Dr. Grifo. Um-hum.
    Mr. Weber. --and I think that for us to be able to weigh in 
on fracking and some of the other issues that seem to be of 
some concern, we need industry experts, those who have 
demonstrated by their lives, their time, their investment in 
terms of money, blood, sweat, and tears that they care about 
this country, they care about the environment. I have been to 
many chemical factories with a lot of my colleagues when I was 
in the state legislature and I would have to say that 
industry--because of that dirty word profit motive--doesn't 
want emissions, doesn't want accidents, doesn't want spells. 
They want to do it the safest, cleanest, best way because it is 
the most profitable. Would you object? I mean do you agree that 
we are horribly underrepresented by industry on this council, 
in the EPA on this panel?
    Dr. Grifo. Every Scientific Advisory Committee under FACA 
must submit a charter. In that charter they have to describe 
what the committee is going to be doing and what balance means 
for that committee. That is what is important is that, you 
know, the folks who were putting the folks--people on that 
panel actually look at that charter, follow that charter.
    I believe somebody submitted for the record the General 
Service Administration's requirements for plans for a balance 
committee and how that works. I support all of that and----
    Mr. Weber. My time is running out here. I just want to make 
the point that I believe we are.
    Dr. McClellan, how about you? And then we will go to Dr. 
Honeycutt.
    Dr. McClellan. Yeah, I--let me put it in sharp focus for 
you. In preparation for this hearing I went to the EPA's 
website and the Science Advisory Board. I looked through the 
participants on that, and as best I could tally them up in 
terms of, you know, where they came from----
    Mr. Weber. Industry experience?
    Dr. McClellan. I looked at these 110 members of the seven 
standing committees. Eighty-seven of those were from academic 
institutions. There was one individual from a company that 
makes products. I looked----
    Mr. Weber. And let's go on to Dr.----
    Dr. McClellan. --at the chartered SAB, something close to 
50 individuals. They were four to one----
    Mr. Weber. You are making my point. Let me run over to Dr. 
Honeycutt real quick. Thank you.
    Dr. Honeycutt. Yes, sir, I agree with you.
    Mr. Weber. Yes, well, boy, he is short and to the point.
    Well, unfortunately, not every EPA representative does us--
we don't get the luxury of having a video or he has gone out 
and talked about crucifying industry like the former Regional 6 
EPA Administrator did, so we are not always fortunate to have 
that kind of biased out there. So it does exist. And I 
appreciate your comments. My time is expired.
    Mr. Vice Chairman, I yield back.
    Chairman Stewart. Yes, Mr. Weber. Thank you.
    The Chair now recognizes the former Chairman, Mr. Hall.
    Mr. Hall. Mr. Chairman, I thank you, and I really thank you 
for holding this hearing and the manner in which you have 
conducted it and your statements. The draft legislation being 
discussed today is a bill I think partially based on a bill I 
had introduced last year too late to get out of rules, but EPA 
Science Advisory Board Reform Act. I certainly look forward to 
your leadership on this because it is imperative that EPA's 
regulatory science be judged by truly independent experts.
    According to the EPA's Peer Review Handbook, the choice of 
peer review should be based primarily upon reviewers' 
expertise, knowledge, skills, and experience. And we have heard 
Dr. Grifo talked of that. And I want to ask her some questions 
in a minute. But according to EPA's Peer Review Handbook, 
choice of peer reviewers should be so based and should include 
specialists from multiple disciplines. Similarly, the National 
Academy of Sciences found that it may be important to have an 
industrial perspective because of the individual's particular 
knowledge and experience are often vital and you could say are 
testimony.
    Dr.--let me see who I want to get to next. I may just go 
directly to Dr. Grifo. You understand that one of the roles of 
an advisory committee is, as you said, to provide consensus 
among various identified interests or stakeholders, your 
statement, right?
    Dr. Grifo. My statement was that----
    Mr. Hall. Was that part of your statement?
    Dr. Grifo. That--if they are appointed as representatives 
but not necessarily for every advisory.
    Mr. Hall. No, I didn't ask you that. I just asked you if 
your statement was it should be among various identified 
interests or stakeholders? Yes or no?
    Dr. Grifo. No.
    Mr. Hall. Good. Then are you going to write and correct 
your statements before, as you have had to do probably many 
times?
    Dr. Grifo. What my statement said was that there are two 
ways that people can be appointed. One is as Special Government 
Employees, which comes with the government ethics rules, most 
of them. The other way they can be appointed is as a 
representative. I did not say whether one should be one or the 
other. What I did say----
    Mr. Hall. All right. Let me stop you there. I think I have 
heard all I want to hear from you. Do you think there is merit 
in acknowledging or making public any dissenting or minority 
opinions much like a court hearing? Do you think that is 
important? Yes or no?
    Dr. Grifo. There are different kinds of----
    Mr. Hall. A yes----
    Dr. Grifo. --advisory committees.
    Mr. Hall. --give me a yes or a no.
    Dr. Grifo. I can't give you a yes or no. It is more complex 
than that.
    Mr. Hall. I didn't think you really could. All that time 
that you were with the research roundtable, did you tell them 
about the court opinion that was given for aluminum against the 
EPA? Did you mention that to them? Now, you were there with 
them I think 18 months. You surely got around to discussing 
something like that. How important is a court hearing, a court 
ruling, not something the EPA or the President has directed or 
the Nazis trying to put on people? That is not what you want. 
We are looking for science from people that will give us true 
science. I don't find you doing that. I am glad my time is 
almost over.
    Chairman Stewart. Thank you, Chairman Hall.
    Some of us have expressed interest in follow-up questions 
with maybe a brief second round, and I think we would like to 
do that if we could.
    I would like to begin then, and go back to an example that 
I alluded to, although only quickly in my opening statements, 
and that is it is an example of, I think, one of the concerns 
that we have in this. As one of the members of EPA's SAB panel 
tasked to reviewing the Agency's hydraulic fracturing study, 
Dr. Jerald Schnoor published an article entitled ``Regulate, 
Baby, Regulate,'' which characterizes a relationship between 
government regulators and the oil and gas industry as ``cozy 
and sometimes corrupt.''
    Now, I would like to turn this just a little bit and then 
get your reaction to it. What is the title of the book had been 
something like Drill, Baby, Drill and the quote that I 
described characterized the relationship between regulators and 
environmental groups as being cozy and corrupt? Do you think if 
someone had taken that, that they would have been allowed to 
continue to serve or, as he was, allowed to serve on subsequent 
boards in that industry? Do you think that would have happened? 
Dr. Honeycutt?
    Dr. Honeycutt. I wouldn't think so.
    Chairman Stewart. Yes?
    Dr. McClellan. I think it is very unlikely. The original 
question, there is an element of the door tends to swing one 
direction there.
    Chairman Stewart. Yes.
    Dr. McClellan. That individual clearly never would have 
made it there. But they probably would not have made it there 
because they may have owned stock in the company. They may have 
been an independent driller.
    Chairman Stewart. Yes.
    Dr. McClellan. So it is--the point is well made.
    Chairman Stewart. Probably not. And Dr. Grifo, I would be 
particularly interested in yours. I mean if someone had made 
the statements as I described them, you know, Drill, Baby, 
Drill, and they described that relationship between, you know, 
environmental groups and regulators, would you have been 
comfortable allowing that person to continue to serve on the 
boards?
    Dr. Grifo. It would have depended on the overall balance of 
the committee. You don't, you know, eliminated conflict of 
interest, balance, bias. If you have people who you believe can 
take part in an open conversation, you want them there and you 
want to balance that point of view. You don't want to 
eliminate.
    Chairman Stewart. And I agree with you actually. And I 
think that is a great point that, you know, you can have people 
with perceived biases as long as they are balanced. Although I 
do think that you reach a threshold, and it may have been 
reached and some comment like that that would have excluded 
that opinion. I mean again if someone had said describe the 
relationship between regulators and environmental groups as 
cozy and corrupt, I think that perhaps is a threshold that even 
excepting bias or prejudices in the panel would have made so 
many people uncomfortable with a preconceived notion, I think 
it would have made many of us uncomfortable. And yet, the 
doctor continued to serve on subsequent boards.
    And I think that is just an example of a problem that we 
hope to address in this revised legislation from the former 
Chairman that we are happy to carry over from, you know, the 
previous Congress.
    Yes?
    Dr. Grifo. I just think that the pieces and hear that talk 
about making public the list ahead of time and allowing people 
to know who is going to be appointed are critical to looking at 
that balance issue. I think that is really important.
    Chairman Stewart. Well, and I agree with you. And, you 
know, along with that and in a separate area is this--and you 
have addressed this, although I don't think we have addressed 
it as strongly as I would have liked to, and that was this idea 
that it is okay for some of these members to have direct 
financial ties through grants or other financial, you know, 
financial vehicles that the government uses, and yet we are so 
readily exclude those who have financial ties to the industry. 
And agreeing with you, Dr. Grifo, as long as they are revealed, 
as long as the ethics of this are clear. I think that we can 
clearly bring in more balance.
    And Dr. McClellan, as you indicated in your previous answer 
to a question, you know, some 100 members on one panel and only 
one from the industry. And final point I will make and then I 
will yield time, the fracking industry is an industry, if we 
think IT as being an industry that is very dynamic and has 
great changes, it is nothing compared with the technological 
advances we are seeing and fracking. I mean these processes are 
changing every day, every week. And if you are not reaching out 
to these industry experts and asking for their input to these, 
if you are talking to someone who hasn't been in industry for a 
few months let alone a few years, then you are not getting the 
appropriate response from them because the technology has 
passed them by.
    Thank you again for your time today. And I now yield to the 
Ranking Member, Ms. Bonamici.
    Ms. Bonamici. Thank you very much, Chairman Stewart.
    I want to start by saying that witnesses here today are all 
professionals with years of experience and deserve to be 
treated as such regardless of whether we agree or disagree with 
their positions. So I just wanted to state that for the record 
and I hope that the other Members will respect that as well.
    I want to clarify something that came up in Mr. Weber's 
question. Dr. Grifo, in your written testimony this is very 
clear, but I am concerned about the record. I want to make sure 
that it is clear for those just listening as well. When you 
talked about how everyone on one of the EPA's SABs should be a 
Special Government Employee, I am concerned that some people 
thought that that meant that it could only mean somebody who 
was employed by the government and not an industry person. But 
your written testimony makes clear that when a member of a 
committee is--that is created to provide independent advice is 
appointed as a Special Government Employee, that is a specific 
term that requires that they comply with the government ethics 
rules.
    So I want to clarify that for the record and perhaps, Dr. 
Grifo, if you could explain a little bit about what that means 
to be a Special Government Employee to really make clear what 
the requirements are and clarify that it does include people 
from industry. If they are appointed as a Special Government 
Employee, that doesn't mean you exclude industry people.
    Dr. Grifo. Absolutely. To be--it is just a way of 
appointing people to government employee--to advisory 
committees. It is a term that refers to the number of days per 
year that they work and so on. It is just--it is a piece of the 
bureaucracy.
    But I think the other thing that is important is that, you 
know, academia does not mean no experience with industry. I 
think our academic world and the corporate world are 
increasingly interdigitated, and so to put someone in this 
pile, or this pile, it becomes a little bit artificial because 
I think we cross those piles on a regular basis.
    Ms. Bonamici. Thank you very much, Dr. Grifo. And just 
again to clarify that Special Government Employee does include 
people from industry----
    Dr. Grifo. Absolutely.
    Ms. Bonamici. --it simply means that they need to comply 
with the government ethics rules, which I happen to think is a 
good thing.
    Dr. Grifo. Absolutely.
    Ms. Bonamici. So thank you all for your testimony.
    And I think, Mr. Chairman, that we have certainly 
identified several areas where we agree, and I look forward to 
working with you and getting the input of the other Members and 
hope we can come up with some meaningful policy that improves 
the process.
    Chairman Stewart. Yes, thank you, Ms. Bonamici.
    And then we now turn once again to Dr. Broun.
    Mr. Broun. Thank you, Mr. Chairman. Dr. Grifo stated that 
the provisions requiring that the scientific and technical 
points of view represented by fairly balanced is unnecessary 
because it is already included in the Federal Advisory 
Committee Act. However, Dr. Honeycutt, Dr. McClellan, would you 
agree that it is important for the points of view represented 
on advisory panels such as the SAB be balanced? Yes or no?
    Dr. Honeycutt. Yes.
    Mr. Broun. Dr. McClellan?
    Dr. McClellan. Absolutely. And let me elaborate just a bit.
    Mr. Broun. I have got just a little bit of time and you 
like to talk a lot, so I just needed a yes or no right there. I 
appreciate it. If you can collaborate in your written response 
if you would.
    Do you believe that EPA's current advisory panels such as 
the SAB or the Clean Air Science Advisory Committee are 
balanced in terms of the points of view represented, Dr. 
Honeycutt?
    Dr. Honeycutt. No, sir.
    Mr. Broun. Dr. McClellan?
    Dr. McClellan. No.
    Mr. Broun. Dr. Grifo?
    Dr. Grifo. It depends on the panel.
    Mr. Broun. I asked yes or no.
    Dr. Grifo. I can't answer it that way. I am sorry.
    Mr. Broun. Okay. Nine members of the 2011 CASAC panel to 
review PM2.5 has signed a public letter which expressed 
dissatisfaction with the current standard, as well as a strong 
opinion of what the standard should be. This means that 40 
percent of the review panel is of the same opinion as to the 
advisory work that they are tasked with. Would you say this 
represents an adequate balance of opinion, Dr. Honeycutt?
    Dr. Honeycutt. No, sir.
    Mr. Broun. McClellan?
    Dr. McClellan. No, they fail to distinguish between the 
science and the policy they were advocating.
    Mr. Broun. Okay. Dr. Grifo?
    Dr. Grifo. No comment. I am not that familiar with that 
particular panel. I would have to look at it.
    Mr. Broun. Well, Dr. Grifo, the SAB's 2011 mercury panel is 
comprised of 17 academics, three state regulatory members, one 
from USGS and one private sector industry representative. You 
said that the panels should be balanced. Would you say that 
this is a fairly balanced panel?
    Dr. Grifo. We don't have the information that the folks 
putting that panel together had about the specific backgrounds 
and details of those individuals.
    Mr. Broun. Well, I am not asking about----
    Dr. Grifo. They made a determination----
    Mr. Broun. --their background. I just----
    Dr. Grifo. --that it was balanced. Again----
    Mr. Broun. --told you, Ms.----
    Dr. Grifo. --the label of academia, the label of industry, 
they are intermixed. People go back and forth between those 
realms. What is important is that you look at it, look at the 
charter for the committee and make sure that it is balanced. On 
that, sir, we can agree.
    Mr. Broun. Well, I think it should be balanced. If those 
academics are going to be promoting whatever their academic 
bias might be, three state regulatory members, one from USGS, 
and only one from the private sector, this is not balanced. And 
I think we can all agree we need balance, we need scientific 
integrity, and frankly, I don't see that.
    Mr. Chairman, I yield back.
    Chairman Stewart. Yes, thank you, Dr. Broun.
    Well, with that we conclude our hearing today. I would like 
to thank once again the witnesses for your valuable testimony 
as well as to the Members for their questions.
    The record will remain open for two weeks for additional 
comments and written questions from the Members. And we ask the 
witnesses to respond to these written questions in a timely 
fashion.
    Well, again, with our gratitude, the witnesses are excused 
and this hearing is adjourned.
    [Whereupon, at 11:21 a.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Dr. Michael Honeycutt
[GRAPHIC] [TIFF OMITTED] 80553.038

[GRAPHIC] [TIFF OMITTED] 80553.039

[GRAPHIC] [TIFF OMITTED] 80553.040

[GRAPHIC] [TIFF OMITTED] 80553.041

[GRAPHIC] [TIFF OMITTED] 80553.042

Responses by Dr. Roger McClellan
[GRAPHIC] [TIFF OMITTED] 80553.043

[GRAPHIC] [TIFF OMITTED] 80553.044

[GRAPHIC] [TIFF OMITTED] 80553.045

Responses by Dr. Francesca Grifo
[GRAPHIC] [TIFF OMITTED] 80553.046

                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

            Letters sent to the Committee by various groups
            and individuals expressing their concerns about
                the provisions in the bill submitted by
                    Representative Suzanne Bonamici

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        Congressional Research Service Memorandum on EPA Grants
             to Members of Selected EPA Advisory Committees
              submitted by Representative Dana Rohrabacher

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

       Thank you letter and Questions sent to Dr. Grifo from the
  Subcommittee on Investigations and Oversight hearing on October 13, 
                                 2011,
    for the hearing titled, ``The Endangered Species Act: Reviewing
  the Nexus of Science and Policy,'' submitted by Representative Paul 
                                 Bourn

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          George T. Wolff, The Changing NAAQS Review Process,
                   submitted by Dr. Michael Honeycutt
[GRAPHIC] [TIFF OMITTED] 80553.047

[GRAPHIC] [TIFF OMITTED] 80553.048

[GRAPHIC] [TIFF OMITTED] 80553.049

[GRAPHIC] [TIFF OMITTED] 80553.050

[GRAPHIC] [TIFF OMITTED] 80553.051

[GRAPHIC] [TIFF OMITTED] 80553.052

[GRAPHIC] [TIFF OMITTED] 80553.053

[GRAPHIC] [TIFF OMITTED] 80553.054

[GRAPHIC] [TIFF OMITTED] 80553.055

[GRAPHIC] [TIFF OMITTED] 80553.056

[GRAPHIC] [TIFF OMITTED] 80553.057

[GRAPHIC] [TIFF OMITTED] 80553.058

        EPA Evalualion Report submitted by Dr. Michael Honeycutt
[GRAPHIC] [TIFF OMITTED] 80553.059

[GRAPHIC] [TIFF OMITTED] 80553.060

[GRAPHIC] [TIFF OMITTED] 80553.061

[GRAPHIC] [TIFF OMITTED] 80553.062

[GRAPHIC] [TIFF OMITTED] 80553.063

[GRAPHIC] [TIFF OMITTED] 80553.064

[GRAPHIC] [TIFF OMITTED] 80553.065

[GRAPHIC] [TIFF OMITTED] 80553.066

[GRAPHIC] [TIFF OMITTED] 80553.067

[GRAPHIC] [TIFF OMITTED] 80553.068

[GRAPHIC] [TIFF OMITTED] 80553.069

[GRAPHIC] [TIFF OMITTED] 80553.070

[GRAPHIC] [TIFF OMITTED] 80553.071

[GRAPHIC] [TIFF OMITTED] 80553.072

[GRAPHIC] [TIFF OMITTED] 80553.073

[GRAPHIC] [TIFF OMITTED] 80553.074

[GRAPHIC] [TIFF OMITTED] 80553.075

[GRAPHIC] [TIFF OMITTED] 80553.076

[GRAPHIC] [TIFF OMITTED] 80553.077

[GRAPHIC] [TIFF OMITTED] 80553.078

[GRAPHIC] [TIFF OMITTED] 80553.079

[GRAPHIC] [TIFF OMITTED] 80553.080

         GSA Federal Advisory Committee Membership Balance Plan
                   submitted by Dr. Michael Honeycutt
[GRAPHIC] [TIFF OMITTED] 80553.081

[GRAPHIC] [TIFF OMITTED] 80553.082

[GRAPHIC] [TIFF OMITTED] 80553.083

[GRAPHIC] [TIFF OMITTED] 80553.084

                                 <all>

</pre></body></html>
